U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

July 29, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: John D. Leontaritis v. United States, No. 20-1614
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on May 17, 2021.
The government’s response is now due, after one extension, on August 6, 2021. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
September 7, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-1614
LEONTARITIS, JOHN D.
USA

CHARLES RANDALL FLORES
BECK REDDEN LLP
1221 MCKINNEY ST.
SUITE 4500
HOUSTON, TX 77010
713-951-6268
CFLORES@BECKREDDEN.COM
FEDERICO REYNAL
FERTITTA REYNAL, LLP
815 WALKER STREET
SUITE 1553
HOUSTON, TX 77002
713-228-5900
AREYNAL@FRLAW.US
713-820-6981(Fax)

